2020IL App (2d) 170695-U
No. 2-17-0695
Order filed April 24, 2020
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
THE PEOPLE OF THE STATE
OF ILLINOIS,

)
)

Plainti ff-Appellee,

)
)
)

v.

)

Appeal from the Circuit Court
of Winnebago County.

No. 14-CF-3136

)

CALVIN LEWIS CARTER IE,
Defendant-Appellant.

)
)
)

Honorable
John R. Truitt and Fernando L. Engelsma,
Judges, Presiding.

JUSTICE ZENOFF delivered the judgment of the court.
Justices McLaren and Hudson concurred in the judgment.
ORDER
11

Held: The trial court properly denied the defendant’s motion to suppress evidence where
the police had reason to believe that the defendant was within the apartment where
they attempted to serve an arrest warrant; the defendant failed to show that it was
error to sentence him to four consecutive life sentences.

12

Following a jury trial, defendant, Calvin Lewis Carter in, was convicted of four counts of

first-degree murder (720 ILCS 5/9-1(a)(1) (West 2014)) and one count of home invasion (720
ILCS 5/19-6(a)(5) (West 2014)). He appeals. We affirm.
13

I. BACKGROUND

2020IL App (2d) 170695-U
f4

We include only those facts necessary to our disposition of the issues raised by defendant.

On December 20, 2014, at 11:20 p.m., police officers were dispatched to 3234 Montrose Avenue
in Rockford, Illinois, in response to a report of shots fired. Two adults and two young children
were fatally shot in the head execution style. The adult female victim was Martia Flint.
15

The investigation quickly led the police to suspect that defendant was involved in the

murders. In searching text messages stored in Martia’s cell phone, which the police recovered from
the murder scene, they found that she had a soured romantic relationship with defendant. Martia
accused him of physical abuse. Among Martia’s text messages was a warning to a friend that, if
anything happened to her, defendant “did it.” The search of Martia’s phone also revealed that
defendant had repeatedly called and texted her from December 10 to the date of the murders, but
not thereafter.
f6

Within hours after the murders, Martia’s brother, Mekyial Collins, told the police that he

was with Martia twice the previous month when she dropped defendant off at 422 11th Street in
Rockford. That address was a duplex. According to Collins, on each occasion defendant entered
the 422 side of the duplex from the rear of the building. The police also learned from Collins that
defendant lived at 1345 4th Avenue, which was a block and a half from the 11th Street address.
That same morning, the police determined that the 4th Avenue property was vacant. Later, the
police learned that defendant had lived at the 4th Avenue address with his uncle, Courtney Carter.
f7

The morning after the murders, the police confirmed the existence of an outstanding arrest

warrant for defendant from St. Clair County on the charge of misdemeanor theft.
f8

On December 23, 2014, the police again noted that the residence at 1345 4th Avenue was

vacant. However, they found a .45 caliber handgun containing one live round behind the garage at
that address. The brand of the ammunition inside the gun matched that of 13 spent .45 caliber shell

-2-

2020IL App (2d) 170695-U
casings found at the murder scene. The police were unable to locate defendant, although his cell
phone was pinging in the area of422 11th Street.

19

On December 24, 2014, at 10 a.m., Rockford detectives, including Detective David

Paterson, went to the 11th Street address to arrest defendant on the warrant. A common front door
shared with 424 11th Street was locked. Through windows, Paterson saw two interior apartment
doors, which appeared to be closed.
f 10

The detectives circled to the back of the property. They knocked on the door to 422 but no

one answered. When they knocked at 424, the tenant, Diane Robinson, answered. She did not
recognize defendant’s picture. However, she knew that Courtney Carter rented 422. She had not
seen Carter, or anyone else, in apartment 422 in some time. She allowed the detectives into a
common garage, where a gold BMW belonging to Carter was parked. The police knew that Carter
was not using the BMW because he was incarcerated in the county jail. They also had information
that the BMW was used in the murders. The record is conflicting with respect to whether Carter
allowed defendant to use the BMW. Robinson then gave the detectives access to the front vestibule
shared by both apartments.
1111

Paterson was the first detective into the vestibule. He observed that the door to apartment

422 was “slightly ajar.” Paterson saw light shining through the cracked-open door. In his written
report, Paterson referred to the door only as “unsecured.” The detectives performed a two-minute
“protective sweep” inside apartment 422, looking for defendant. During the sweep, they noticed a
cell phone on a couch. One of the detectives called defendant’s number, and the phone on the
couch rang. In an upstairs bedroom, the detectives saw mail addressed to defendant. At the end of
the sweep, the police left without taking anything. Hie police then obtained a search warrant for
the premises. They recovered numerous items that were introduced in the State’s case at trial.

-3-

2020IL App (2d) 170695-U
f 12

Defendant filed a motion to quash the warrant and suppress evidence on the ground that

the entry without a search warrant tainted the later search pursuant to the search warrant. The
evidence at the hearing on the motion to suppress was as recounted above. In addition, Robinson
testified that, from inside her apartment, she heard the detectives pry open the door to 422.
However, a photograph of the door showed no evidence of pry marks.
f 13

The court denied the motion to suppress, relying on People v. Sain, 122 HI App. 3d 646

(1984).1 The court found that the police entered apartment 422 to serve the arrest warrant with
reason to believe that defendant was within the premises: defendant was dropped off there multiple
times within the last month, his prior address was vacant, and the door to 422 was ajar when
Paterson encountered it. The court disbelieved Robinson’s testimony that the detectives pried the
door open.
114

The court further found that, even if the entry was unlawful, the police gained nothing that

was used in the affidavit for the search warrant. The only items that the police noted in plain view
were the cell phone and the mail. The court found that the police knew about the cell phone and
defendant’s connection to the apartment prior to their entry.
f 15

After the jury found defendant guilty of murder and home invasion, the court denied

defendant’s posttrial motion and sentenced him to four consecutive natural life terms plus 50 years
in prison for the murders. The court sentenced defendant to an 80-year term of imprisonment for
home invasion, to be served consecutively to the sentences on the murder convictions. Defendant
filed a timely appeal.

i

The court rejected the State’s many justifications for the initial entry without a search

warrant apart from the justification that was based on the outstanding arrest warrant.
-4-

2020IL App (2d) 170695-U
II. ANALYSIS

If 16
f 17

Defendant first contends that the court erred in denying his motion to suppress. Defendant

argues that the police had no reason to believe that he was within the premises when they entered
to serve the arrest warrant. See Payton v. New York, 445 U.S. 573, 602 (1980) (an arrest warrant
founded on probable cause implicitly carries limited authority to enter a suspect’s dwelling when
there is reason to believe the suspect is within); see also People v. White, 117 HI. 2d 194, 209
(1987) (absent exigent circumstances, the police may not enter a suspect’s home without an arrest
wanant and reason to believe that the suspect is within). In reviewing a trial court’s ruling on a
motion to suppress, we defer to the court’s findings of fact, reversing them only if they are against
the manifest weight of the evidence, but we review de novo the court’s ultimate determination of
whether suppression is warranted. People v. Burton, 409 HI. App. 3d 321, 327 (2011). A decision
is against the manifest weight of the evidence only where the opposite result is clearly evident, or
the determination is unreasonable, arbitrary, or without basis in the evidence. People v. Hourar,
365 Ill. App. 3d 682, 686 (2006).
f 18

Here, the trial court ruled that our decision in Sain controlled. In Sain, Officer Arp of the

Lisle Police Department received a dispatch that the victim was receiving harassing phone calls
“again.” Sain, 122 Ill. App. 3d at 647. The victim believed that the defendant was making the calls
from his residence. Sain, 122 Ill. App. 3d at 647. Arp knew of an outstanding arrest warrant for
the defendant on a misdemeanor charge of assault. Sain, 122 Ill. App. 3d at 647. Arp went to the
defendant ’s house, where he saw lights on, although he could not see inside because the curtains
were drawn. Sain, 122 Ill. App. 3d at 647. The officer knocked on the unlocked back door, and,
receiving no response, he stepped through the door onto an enclosed porch. Sain, 122 Ill. App. 3d
at 648. Finding another unlocked door, Arp entered the lighted kitchen and called out, “Hello,

-5-

2020 EL App (2d) 170695-U
police.” Sain, 122 Ill. App. 3d at 648. In the living room, which was illuminated by the kitchen
lights, Arp saw a plastic baggie containing suspected cannabis. Sain, 122 Ill. App. 3d at 648. Arp
later seized the cannabis pursuant to a search warrant. Sain, 122 Ill. App. 3d at 648.
119

The trial court suppressed the cannabis, finding “little to suggest” that Arp reasonably

believed that the defendant was within his home. Sain, 122 HI. App. 3d at 648. This court
disagreed. We held that (1) it is reasonable to look to a defendant’s residence as a place where he
or she might be found, and (2) the presence of the lights and the unlocked door gave the officer
reason to believe that the defendant was within the house. Sain, 122 Ill. App. 3d at 652.
f 20

Defendant attempts to distinguish Sain on the following grounds. First, in Sain, there was

no question that the dwelling belonged to the defendant, whereas, here, the police knew that
defendant was not the lessee of 422 11th Street. Second, in Sain, the dispatch alerted Arp that the
defendant had recently made harassing phone calls from his home, whereas, in our case, the police
had no information that defendant was within apartment 422. Third, whereas Arp encountered two
unlocked doors, in our case, the common front door to the duplex was locked, and the inner front
door to apartment 422 appeared to be closed when Paterson saw it through the windows.
f 21

These minor factual differences are insufficient to distinguish Sain. The police knew that

defendant lived with Carter at 1345 4th Avenue and that defendant was also associated with the
11th Street address. The morning after the murders, the police ascertained that the 4th Avenue
property was vacant. It was still vacant on the morning of December 24. Therefore, the detectives
acted reasonably in going to the 11th Street address to look for defendant. In addition to knowing
that defendant’s uncle rented 422 11th Street, and that defendant lived with his uncle, they knew
that defendant’s cell phone was pinging off that address, indicating that defendant may have been

-6-

2020IL App (2d) 170695-U
present. Then, Paterson observed the door to 422 standing ajar. Pursuant to Sain, the above facts
justified the detectives’ entry into apartment 422.
f 22

However, relying on People v. Burns, 2016 IL 118973, defendant further contends that

Paterson’s observation of the door to apartment 422 from the common vestibule constituted an
illegal search. Defendant did not raise this issue before the trial court. Generally, an appellant
cannot raise an issue for the first time on appeal. People v. Weber, 98 Ill. App. 3d 631,633 (1981).
Issues not raised below are considered forfeited. Weber, 98 HI. App. 3d at 633. However, the State
does not argue forfeiture. Accordingly, the State has forfeited the issue of forfeiture. See People
v. Reed, 2016 IL App (1st) 140498, f 13.
123

In Burns, the police received a tip that the defendant was selling drugs from her apartment.

Burns, 2016 IL 118973, f 4. The defendant lived on the third floor of a 12-unit locked building,
the common areas of which were not accessible to the public. Bums, 2016 IL 118973, f 3. There
was a small landing outside the doors to the defendant’s apartment. Burns, 2016 IL 118973, f 3.
Acting on the tip, the police entered the building by unknown means at 3:20 a.m. accompanied by
a drug-sniffing dog, which alerted at the defendant’s apartment door. Burns, 2016 IL 118973, f 7.
The police then obtained a search warrant for the defendant ’s apartment, from which they seized
marijuana. Burns, 2016 IL 118973, f 9. The trial court granted the defendant’s motion to suppress
the evidence, and the appellate court affirmed, holding that the search warrant was based on an
unconstitutional warrantless dog sniff. Bums, 2016 IL 118973,

12-13. Our supreme court

determined that Florida v. Sardines, 569 U.S. 1 (2013), controlled that issue. In Sardines, the issue
was whether the use of a drug-sniffing dog on a homeowner’s porch to investigate the contents of
the home was a search within the meaning of the Fourth Amendment. Sardines, 569 U.S. at 3. The
Supreme Court noted that the Fourth Amendment establishes a “simple baseline,” namely, that

-7-

2020IL App (2d) 170695-U
when the government obtains information by “physically intruding” on persons, houses, papers,
or effects, a search has occurred. Jardines, 569 U.S. at 5. The Supreme Court concluded that (1)
the porch was part of the curtilage of the home, which was a constitutionally protected area, and
(2) the use of a trained police dog to explore the curtilage in hopes of discovering incriminating
evidence was an unlicensed physical intrusion. Jardines, 569 U.S. at 7-9. Applying Jardines, our
supreme court in Burns held that the landing in front of the defendant’s apartment door was the
curtilage. Bums, 2016 IL 118973, f 41. The next question was whether the officers’ investigation
was accomplished through “an unlicensed physical intrusion.” Burns, 2016 IL 118973, % 41. Our
supreme court determined that it was, as the police entered the defendant’s locked apartment
building at 3:20 a.m. with a drug-detection dog. Bums, 2016 EL 118973, f 44.
f 24

Even if the vestibule area outside the door to apartment 422 was the curtilage, as defendant

posits, the constitutional consideration in Burns (an& Jardines)—whether there was an unlicensed
physical intrusion—is not present here. See People v. Bonilla, 2018 IL 122484, f 24 (it is the act
of approaching the defendant’s apartment door to have a drug-sniffing dog sniff the threshold that
constitutes an unlicensed physical intrusion). Here, Robinson allowed Paterson into the vestibule
that she shared with apartment 422. From there, Paterson visually observed the open door to
apartment 422. A visual observation is physically nonintrusive. Jardines, 569 U.S. at 7. A police
officer is not a “special instrument designed to sense what a human being cannot, like a narcotics
K-9.” People v. Brandt, 2019 IL App (4th) 180219, f 37. Therefore, in Brandt, the appellate court
“outright” rejected the notion that placing a trained drug force officer near an open window of a
home when the possession and sale of cannabis is suspected is akin to bringing a dog within a
person’s curtilage. Brandt, 2019 IL App (4th) 180219, f 37. Here, because the police had reason
to believe, for purposes of serving the arrest warrant, that defendant was within apartment 422 and
-8-

2020IL App (2d) 170695-U
there was no unlicensed physical intrusion involved in Paterson’s observation of the open door,
we determine that the trial court properly denied defendant’s motion to suppress.
125

Next, defendant argues that we must vacate two of his natural life sentences. The State

asserts that defendant forfeited this argument because he did not raise it below. It is well settled
that, to preserve a claim of sentencing error, both a contemporaneous objection and a written
postsentencing motion are required. People v. Walsh, 2016 IL App (2d) 140357, f 16. The State is
correct that defendant did not challenge his sentence before the trial court. However, plain error is
a “limited and narrow”exception to the general forfeiture rule. Walsh, 2016 IL App (2d) 140357,
| 17. While defendant did not raise plain error in his opening brief, he did so in his reply brief.
Arguing plain error in a reply brief is sufficient to allow us to review the claimed error. People v.
Ramsey, 239 Ill. 2d 342, 412 (2010).
f 26

The State also contends that defendant failed to present a sufficiently complete record for

us to decide this issue, because he did not include a record of the sentencing hearing in the report
of proceedings. Defendant responds that a report of proceedings is not necessary. As defendant’s
argument raises a question of law, we agree that a transcript of the hearing is not required. “[WJhile
ordinarily, in the absence of a record of the proceedings below, it is presumed that the order entered
by the trial court was in conformity with the law and had a sufficient factual basis,” transcripts
may be unnecessary “when an appeal confronts solely a question of law, which we review de
novo.” Watkins v. Office of the State Appellate Defender, 2012 IL App (1st) 111756, f 19.
Consequently, we determine that defendant has not forfeited this issue.
f 27

Defendant challenges his sentence under section 9-1(b)(3) of the Criminal Code of 2012

(720 ILCS 5/9-l(b)(3) (West 2018)). That section is not part of the sentencing statutes. It is part
of the statutory definition of murder and lists an aggravating factor designed to notify a defendant
-9-

2020IL App (2d) 170695-U
of his or her eligibility for the death penalty. People v. Coleman, 168 Ill. 2d 509, 550 (1995). It
provides that a defendant may be sentenced to death when (1) he or she has been convicted of
murdering two or more individuals, and (2) he or she was at least 18 years old at the time of the
offenses. 720ILCS 5/9- 1(b)(3) (West 2018). Neither defendant nor the State explains the relevance
of section 9-1 (b)(3). Effective July 1, 2011, Illinois abolished the death penalty. 725 ILCS 5/1191 (West 2012). Here, the State included in the indictment a notice that defendant was subject to a
sentence of natural life pursuant to section 9-l(b)(3), but it does not appear that section 9-1(b)(3)
was ever amended to provide for notice of a life sentence.
f 28

Even if section 9-1(b)(3) provides notice of eligibility for a sentence of natural life,

defendant does not dispute that he was given notice of his eligibility under this section, as die
indictment clearly shows that he was. Instead, in a one-sentence argument, defendant concludes
that “[the trial courtj was not permitted to impose extended-term sentences on all four of the
convictions.” Defendant seems to argue that section 9-1(b)(3) limits a life sentence to every two
convictions for murder, but he does not engage in any statutory analysis.
f 29

As noted, we review this issue under the plain-error doctrine. Plain error is a “limited and

narrow” exception to the general forfeiture rule. Walsh, 2016 IL App (2d) 140357, f 17. To obtain
relief pursuant to the plain-error doctrine, a defendant must show that a clear or obvious error
occurred. Walsh, 2016 EL App (2d) 140357, f 17. If a clear or obvious error occurred, a defendant
must then show either that (1) the evidence at the sentencing hearing was closely balanced, or (2)
the error was so egregious as to deny a fair sentencing hearing. Walsh, 2016 IL App (2d) 140357,
f 17. Here, defendant invokes the second prong of plain error in one conclusory sentence: “[TJhe
second prong of plain error analysis applies, where the court’s improper imposition of two

- 10-

2020IL App (2d) 170695-U
extended-term sentences, where they were not permitted by law, violated his right to a fair
sentencing hearing and his fundamental right to liberty.”
130

Defendant has not demonstrated that a clear or obvious error occurred. Pursuant to section

5-8- l(c)(ii) of the Code of Corrections (730 ELCS 5/5-8-1 (c)(ii) (West 2018)), a sentence to a term
of natural life imprisonment for murdering more than one victim is mandatory. Defendant does
not contend that he was improperly sentenced to four natural life terms under that section.
Accordingly, we cannot find that plain error occurred.
m. CONCLUSION

f 31
f 32

For the reasons stated, we affirm the judgment of the circuit court of Winnebago County.

f 33

Affirmed.

-11 -

• 'T/

FIAT JU8TITIA

5

ilrtjfi
ILLINOIS APPELLATE COURT
SECOND DISTRICT
55 SYMPHONY WAY
ELGIN, IL 60120
(847) 695-3750

June 11,2020
Calvin Lewis Carter III
Reg. No. Y24345
Menard Correctional Center
P.O.Box 1000
Menard, IL 62259
RE:

People v. Carter III, Calvin Lewis
Appeal No.: 2-17-0695
County: Winnebago County
Trial Court No.: 14CF3136

The court today denied the petition for rehearing filed in the above cause. The mandate of this
court will issue 70 days from today unless otherwise ordered by this court or a petition for leave
to appeal is filed in the Illinois Supreme Court.

Honorable Donald C. Hudson
Honorable Kathryn E. Zenoff
Honorable Robert D. McLaren

Jeffrey H. Kaplan
Clerk of the Court
cc:

Steven Andrew Rodgers

I'FTii

\^.,JULV1-1BT7r /7

• •

*

ILLINOIS APPELLATE COURT
SECOND DISTRICT
55 SYMPHONY WAY
ELGIN, IL 60120
(847) 695-3750

MANDATE
Pane1:

Honorable Donald C, Hudson
Honorable Kathryn E. Zenoff
• Honorable Robert D. McLaren

THE PEOPLE OF THE STATE OF
ILLINOIS,
Plaintiff-Appellee,

Appeal No.: 2-17-0695
County/Agency: Winnebago County
Trial Court/Agency Case No.: 14CF3136

v.

CALVIN LEWIS CARTER III,
Defendant-Appellant.
BE IT REMEMBERED, that on the 24th day of April, 2020, the final judgment of the
Ulinojs Appellate Court, Second District, was entered Of record as follows:
Affirmed
In accordance with Illinois Supreme Court Rule 368, this mandate is issued. As clerk of
the Illinois Appellate Court, Second District, and keeper of the records, files, and seal thereof, I
certify that the foregoing is a true statement of the court’s final judgment in the above cause.
Pursuant to Illinois Supreme Court Rule 369, the clerk of the circuit court shall file the mandate
promptly.

;
• 't;

v^ {
fiatjustitia

•

II rH
ill
- » j&i

•

IN TESTIMONY WHEREOF, I hereunto set my
hand and affix the seal of the Illinois Appellate
Court, Second District, this 12th day of November,
2020.

\^"LY1,T>&

Clerk of the Court

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312)793-1332
TDD: (312)793-6185

Calvin Lewis Carter III
Reg. No. Y24345
Menard Correctional Center
P.O. Box 1000
Menard IL 62259

September 30, 2020
in re:

People State of Illinois, respondent, v. Calvin Lewis Carter III
petitioner. Leave to appeal, Appellate Court, Second District.
126260

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours,

LGtsSo&t
Clerk1 of the^upreme Court

j

